F1
VISA PLATINUM/VISA SECURED/VISA PLATINUM REWARDS
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

F2
8.90%

to F3
18.00%

when you open your account, based

on your creditworthiness.
Visa Secured

F4
8.90%
Visa Platinum Rewards

F5
9.90%

APR for Balance Transfers

to F6
17.90%

when you open your account, based

on your creditworthiness.
Visa Platinum

F7
8.90% to F8
18.00% when you open your account, based on your
creditworthiness.
Visa Secured
F9
8.90%
Visa Platinum Rewards

APR for Cash Advances

F10
9.90% to F11
17.90% when you open your account, based on your
creditworthiness.
Visa Platinum
F12
to F13
8.90%
18.00% when you open your account, based on your
creditworthiness.
Visa Secured
F14
8.90%
Visa Platinum Rewards

How to Avoid Paying Interest on Purchases

For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

F15
9.90% to F16
17.90% when you open your account, based on your
creditworthiness.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

F17
NONE
F18
NONE
F19
$10.00
F20
NONE
DNCHE4 (MXC402 CCM002)-e

SEE BACK OF PAGE for more important information about your account.

Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Up to $25.00
F21
F22
NONE
Up to F23
$20.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).”
Effective Date.
The information about the costs of the card described in this application is accurate as of F24
JULY 1, 2015
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Lost or Stolen Card Replacement Fee
Visa Receipt Copy Fee

F25
$25.00 or the amount of the required minimum payment, whichever
is less, if you are five (5) or more days late in making a payment.
F26
or the amount of the required minimum payment, whichever
$20.00
is less.
F27
$20.00
F28
$25.00

DNCHE4 (MXC402 CCM00)-e

